<html>
<title> - ORGAN HARVESTING OF RELIGIOUS AND POLITICAL DISSIDENTS BY THE CHINESE COMMUNIST PARTY</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                   ORGAN HARVESTING OF RELIGIOUS AND
          POLITICAL DISSIDENTS BY THE CHINESE COMMUNIST PARTY

=======================================================================

                             JOINT HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                AND THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                            AND HUMAN RIGHTS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 12, 2012

                               __________

                           Serial No. 112-180

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
75-859                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6e091e012e0d1b1d1a060b021e400d010340">[email&#160;protected]</a>  


                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         BRAD SHERMAN, California
EDWARD R. ROYCE, California          ELIOT L. ENGEL, New York
STEVE CHABOT, Ohio                   GREGORY W. MEEKS, New York
RON PAUL, Texas                      RUSS CARNAHAN, Missouri
MIKE PENCE, Indiana                  ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
CONNIE MACK, Florida                 THEODORE E. DEUTCH, 
JEFF FORTENBERRY, Nebraska               Florida<greek-l>
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, CaliforniaUntil 8/
TED POE, Texas                           14/12 deg.
GUS M. BILIRAKIS, Florida            BEN CHANDLER, Kentucky
JEAN SCHMIDT, Ohio                   BRIAN HIGGINS, New York
BILL JOHNSON, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
DAVID RIVERA, Florida                CHRISTOPHER S. MURPHY, Connecticut
MIKE KELLY, Pennsylvania             FREDERICA WILSON, Florida
TIM GRIFFIN, Arkansas                KAREN BASS, California
TOM MARINO, Pennsylvania             WILLIAM KEATING, Massachusetts
JEFF DUNCAN, South Carolina          DAVID CICILLINE, Rhode Island
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
ROBERT TURNER, New York
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
              Subcommittee on Oversight and Investigations

                 DANA ROHRABACHER, California, Chairman
MIKE KELLY, Pennsylvania             RUSS CARNAHAN, Missouri
RON PAUL, Texas                      DAVID CICILLINE, Rhode Island
TED POE, Texas                       KAREN BASS, California
DAVID RIVERA, Florida

                                 ------                                

        Subcommittee on Africa, Global Health, and Human Rights

               CHRISTOPHER H. SMITH, New Jersey, Chairman
JEFF FORTENBERRY, Nebraska           KAREN BASS, California
TOM MARINO, Pennsylvania             RUSS CARNAHAN, Missouri
ANN MARIE BUERKLE, New York          THEODORE E. DEUTCH, 
ROBERT TURNER, New York                  Florida<greek-l>As of 6/19/
                                         12 deg.


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Ethan Gutmann, adjunct fellow, Foundation for the Defense of 
  Democracies, and Author, ``Losing the New China''..............     8
Gabriel Danovitch, M.D., professor of medicine, UCLA Medical 
  School.........................................................    14
Damon Noto, M.D., spokesman, Doctors Against Forced Organ 
  Harvesting.....................................................    27
Charles Lee, M.D., spokesman and public relations director, 
  Global Service Center for Quitting the Chinese Communist Party.    36

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, and Human Rights: Prepared statement....     5
Mr. Ethan Gutmann: Prepared statement............................    10
Gabriel Danovitch, M.D.: Prepared statement......................    17
Damon Noto, M.D.: Prepared statement.............................    30
Charles Lee, M.D.: Prepared statement............................    38

                                APPENDIX

Hearing notice...................................................    52
Hearing minutes..................................................    53
The Honorable Christopher H. Smith: Material submitted for the 
  record.........................................................    54


 ORGAN HARVESTING OF RELIGIOUS AND POLITICAL DISSIDENTS BY THE CHINESE 
                            COMMUNIST PARTY

                              ----------                              


                     WEDNESDAY, SEPTEMBER 12, 2012

                  House of Representatives,
      Subcommittee on Oversight and Investigations,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:30 p.m., in 
room 2172 Rayburn House Office Building, Hon. Dana Rohrabacher 
(chairman of the Subcommittee on Oversight and Investigations) 
and Hon. Chris Smith (chairman of the Subcommittee on Africa, 
Global Health, and Human Rights) presiding.
    Mr. Rohrabacher. We call this hearing to order, and thank 
my colleague, Chairman Chris Smith, for agreeing to hold this 
hearing jointly between the Oversight and Investigations 
Subcommittee and his Africa, Global Health, and Human Rights 
Subcommittee. I also want to thank ranking members, Congressman 
Russ Carnahan, Congresswoman Karen Bass.
    The Chinese Communisty Party is a corrupt elite which 
aggressively claims territory in the South China Sea, pilfers 
U.S. intellectual property, steals American jobs, and conducts 
massive espionage against our Government and private 
enterprises. The CCP spends a vast amount of its time, energy 
and resources maintaining its grip on power by suppressing the 
rights of the Chinese people, ethnic groups such as the 
Tibetans, the Uighurs, and yes, religious practitioners and 
anyone who speaks up against the party's grip on power.
    The CCP and its state security machine uses a wide range of 
repression techniques including, not only limited to, 
censorship, beatings, home imprisonment, forced labor camps, 
those labor camps called the Laogai of course. And the most 
ghoulish manifestation of this gangsterism is the forced 
harvesting of organs of the political prisoners and religious 
followers that it arrests, particularly of the Chinese 
religious movement known as the Falun Gong.
    Last year, the U.S. Commission on International Religious 
Freedom found in their annual report that the Communist Party 
of China maintains an extra judicial security apparatus called 
the 6-10 office to persecute Falun Gong believers. It is 
estimated that over half of the 300,000 believed in the Laogai 
prisons are inmates who happen to be part of the Falun Gong.
    Since the CCP began its crackdown in 1999, and began to 
call the peaceful practice of the Falun Gong an evil cult, 
thousands have been killed and their organs ripped out of their 
body while they were still warm and transplanted into the 
bodies of rich Chinese and foreign accomplices. Members of the 
CCP do this in order to make themselves and their children 
rich, and because the Falun Gong was and remains a peaceful and 
indigenous movement which attracts tens of millions of 
followers in China. The CCP cannot allow any independent group 
in China to exist which can motivate so many people. Any group 
the CCP does not control is a threat and must be penetrated, 
subverted and destroyed. The Falun Gong has remained peaceful 
even in the face of unspeakable brutality. This unbridled 
obsession with destroying the Falun Gong unmasks the true 
nature of the CCP.
    I look forward to hearing the comments of our panelists. 
And with us today we have Dr. Damon Noto, who is a spokesman 
for the organization, Doctors Against Forced Organ Harvesting. 
He graduated from Mt. Sinai Medical School and is currently an 
attending physician at Hackensack University Medical Center in 
New Jersey.
    Then we have Dr. Gabriel Danovitch--I hope I am pronouncing 
that correctly--is a professor of medicine at the David Geffen 
School of Medicine at UCLA and medical director of the Kidney 
and Pancreas Transplant Program at the Ronald Reagan Medical 
Center, and is an expert on organ transplant tissues.
    Then we have with us Dr. Charles Lee, who serves as the 
spokesman for the Global Center for Quitting the Chinese 
Communist Party. Sounds good to me. He was born in Communist 
China and lived through the Cultural Revolution. After 1989 he 
came to the United States. He is a Falun Gong practitioner, and 
when he traveled back to China in 2003 he was arrested at the 
airport and spent the next 3 years in a Chinese prison. This 
occurred despite the fact that he is a U.S. citizen. While in 
prison he was tortured and forced to make products, some of 
which were later exported for profit to this country.
    Dr. Ethan Gutmann is an accomplished author and currently 
the adjunct fellow at the Foundation for Defense of 
Democracies. He has written extensively on China including for 
the Weekly Standard, National Review and for World Affairs 
Journal. He is also the author of a book, ``Losing the New 
China: A Story of American Commerce, Desire and Betrayal.'' He 
earned his bachelor and master degrees in international affairs 
from Columbia University.
    I believe today's hearing is exceedingly important as we 
stand in moral witness to the ongoing crimes of the CCP and the 
possible accomplices that they have to these crimes right here 
in the United States.
    We now have Ms. Bass, did you have an opening statement?
    Ms. Bass. Thank you, Mr. Chair. Chairmen Rohrabacher and 
Smith, I want to thank you for holding this hearing, and I look 
forward to learning more about this horrific practice. I noted 
there is some differences in terms of the extent of this 
practice on the practitioners of Falun Gong, but to me, the 
idea that you would have the forced harvesting of human organs, 
regardless, is just really deeply troubling. I know that the 
March 2012 Wall Street Journal article notes that China 
recently indicated that it plans to abolish the practice of 
death row inmate organ harvesting over the next 5 years. I 
don't why we would do that over the next 5 years and not 
immediately.
    And I would also like to know, and perhaps it will come out 
in the testimony, since this is a new issue to me, when they 
are harvesting these organs who are they for and who they go 
to, are they exported around the world? Is this a profit making 
business? All of that kind of information I look forward to 
learning about from our witnesses, and thank you for taking the 
time out to come.
    Mr. Rohrabacher. We also have with us Chris Smith, and let 
me just note that Chris and I have fought so many battles 
together over the years and I have always been very proud that 
these type of stands which--and let me just note, when you are 
a Member of Congress, no matter what, there is going to be 
somebody else that is trying to get your job in the next 
election. And a lot of times Members of Congress only want to 
tackle issues that are going to increase the number of 
contributions to their campaign war chest. Standing up for 
human rights does not increase the amount of money in your 
campaign war chest. Chris has been here all of these years and 
has been fighting the good fight, and it is an honor to have 
you here and co-chairing this hearing.
    Mr. Smith. Well, Mr. Chairman, thank you for inviting our 
subcommittee, Ms. Bass and I and members of the subcommittee to 
join you for this important hearing on the grave, but little 
publicized human rights abuse occurring in China today, and 
that has been for many years, organ harvesting.
    I wanted to say very clearly for the record how grateful I 
am for your leadership on human rights in China. Again, very 
often there are far too few people willing to speak, not about 
the human rights abuses in China but to do so with such 
clarity. And I think as most of you know, as a former 
speechwriter for Ronald Reagan, Dana Rohrabacher knows how to 
phrase and how to cut right to the chase and has done so with 
excellence since I have been here. So I want to thank you for 
that extraordinary leadership.
    What adjectives can be used to describe the Chinese doctors 
and hospitals engaging in large scale harvesting of human 
organs for profit? The ordinary words like concerned, 
disturbing, appalling or shocking are inadequate, yet our 
ordinary humanity shies away from words like barbaric. And in 
the absence of firm statistics, open waiting lists, 
tranparency, and the giving of consent, and even the number of 
Chinese who have been sentenced to death, or condemned 
prisoners who are said to have been the large number of organ 
donors, we can't know for sure. But we need to change that and 
the inquiry has to begin in earnest. All that has been done 
years to date has set a very, very terrible record for the 
Chinese Government's organ harvesting, but now we need to go 
and make this a premier human rights issue.
    I want to thank Dr. Charles Lee. He has been tenacious in 
trying to get the Congress to focus on this important issue, 
and so I thank him and I look forward to his testimony.
    I would add paranthetically that as far back as 1998, June 
4th and June 16th, I chaired a hearing on the sale of body 
parts in the People's Republic of China, and we actually 
brought in a guard who brought in pictures, Harry Wu was the 
one who arranged it, and he authenticated, and we had 
everything he said and everything he brought to us really raked 
over the coals to make sure it was accurate and there was 
absolutely no guile or mischief in his presentation. He sat 
right where you gentlemen sat and talked about how they would 
kill prisoners, mostly political and religious prisoners, but 
not execute them, not kill them immediately, but take out the 
desired organs and then finish the job of murdering that 
individual. And whatever was needed, kidneys--what is it that 
you need? They were able to put in the order, and then the 
wardens at various prisons would fill that order.
    The international transplant community, aware that their 
life-extending skills might be abused or might set in motion 
sales of organs by the poor, or favor the rich, have over the 
years developed demanding protocols to assure that their 
donations conform to strict ethical and procedural guidelines. 
The Chinese Government says it is moving toward adherence of 
these standards. I would say, let us not hold our breath. Let 
us trust but verify, and in the absence of accurate information 
can these assurances even be a little bit believed?
    All this so far describes the ordinary transplant of such 
organs as kidneys, livers, lungs, hearts, and corneas from 
those recently deceased to those who can use them. I am 
confident we will hear more from our witnesses about 
transplants in China and where that nation falls short of 
international standards and protocols.
    Mr. Chairman, reports from India, Malaysia, and Israel, of 
their citizens who traveled to China for transplants that were 
botched, and the testimony of a few doctors and nurses now 
outside of China, give disturbing evidence that China has 
become a lawless zone where medical skills are for sale for 
huge sums, where organs are said to come from prisoners, and 
again we began documenting this back in 1998, and I am sure it 
preceded even then when high officials or transplant tourists 
with money need not wait for organs to become available, 
because it is available because they execute a prisoner, where 
profit and power run over the law or medical ethics, where 
pious pronouncements are made by the government that they are 
not doing this.
    So far I have spoken of ordinary transplants, but there is 
a graver prospect, that the Chinese military doctors may be 
engaged in organ harvesting from living prisoners in Chinese 
camps and prisons. The charge is that many victims are ethnic 
minorities, and as Mr. Rohrabacher pointed out, members of the 
Falun Gong, members of the spiritual movement unjustly held, 
abused, subjected to psychological and physical torture for 
nothing more than fidelity to truthfulness, compassion, and 
forbearance. This possibility pushes, and this probability 
pushes us into the horrific beyond, beyond the challenges of 
our language making ``barbaric'' too calm of a word. If this is 
true, even the powerful fraught legal term ``crimes against 
humanity'' seems inadequate, leached of horror. For those who 
doubt that horror could be sanctioned by a modern state, I 
commend the recent article by one of today's witnesses, Ethan 
Gutmann, and I ask that it be appended to record of this 
hearing.
    In the article of the Weekly Standard from last December, 
he describes Xinjiang's procedure, removal of organs by teams 
of surgeons in medical vans immediately after executions. One 
doctor told him that some of the transplants came from still 
living victims, and that comports with what we heard from 
witnesses back in 1998 and since. He said the stories point to 
systematic elimination of China's religious and political 
prisoners, and of course they are making huge profits by doing 
that.
    Without objection, I would, since we were late in starting, 
ask that my full statement be made a part of the record.
    [The prepared statement of Mr. Smith follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. But again, Mr. Chairman, I thank you for pulling 
this hearing together because this barbaric human rights abuse 
must be stopped, but to stop it we first have to further expose 
it, which is why we have this panel. Thank you.
    Mr. Rohrabacher. Ms. Bass, thank you for being here, and 
Chris, thank you for being here.
    This hearing goes to the heart of what America is really 
all about, and if we don't care about things like this what 
kind of country and what kind of people have we become? So 
thank you to all the witnesses for coming here and helping to 
expose this horrendous part of what is going on in the world 
today.
    What we are going to ask is each of the witnesses will have 
5 minutes to summarize their position. If you have a longer 
statement you can submit it for the record, and then we will 
follow that with the questions from the committee to you after 
you all have finished your opening statements.
    So Mr. Gutmann, you may proceed.

STATEMENT OF MR. ETHAN GUTMANN, ADJUNCT FELLOW, FOUNDATION FOR 
   THE DEFENSE OF DEMOCRACIES, AND AUTHOR, ``LOSING THE NEW 
                            CHINA''

    Mr. Gutmann. Beginning in 2006, I began conducting 
comprehensive interviews with medical professionals, Chinese 
law enforcement personnel, and over 50 refugees from the Laogai 
System, in order to piece together the story of how mass 
harvesting from prisoners of conscience evolved in China. Based 
on my research, the practice began in Xinjiang in the 1990s. By 
2001, the practice expanded nationwide, with Falun Gong 
providing a much larger, and frequently anonymous, pool of 
potential donors.
    My time today is very short. I too was skeptical when I 
began my investigation. Some of you may be today. So instead of 
offering my conclusions, I invite you to draw your own 
conclusions from my evidence, 12 witnesses, each of whom fills 
in a critical piece of the puzzle.
    Harry Wu's research shows that harvesting criminals began 
in the 1980s. By the early 1990s it had become systemic, a 
practice involving organ donation consent forms and mobile 
organ harvesting vans at execution sites. These donors were 
criminals. Whether or not the criminals signed the forms under 
duress, they had been convicted of capital crimes under Chinese 
law.
    My first witness, Nijat Abdureyimu, special officer, 1st
    Regiment, Urumqi Public Security Bureau, doesn't dispute 
that but he does note that by 1994, the doctors doing the 
harvesting had become increasingly uninhibited. A fellow 
officer, puzzled over the screams, ``like from hell'' that he 
heard coming from a harvesting van. Two years later the 
prison's medical director confessed to Nijiati that organ 
harvesting from living human beings--they would expire during 
the surgery of course--was now routine.
    My second witness is Dr. Enver Tohti, general surgeon. 
Based in an Urumqi hospital, under his supervisor's firm 
direction, Enver performed a live surgical extraction of a 
man's liver and kidneys on an execution ground. This execution 
ground was commonly used for political prisoners. The man had 
long hair, rather than a convict's shaved head. But there are 
no fully credible allegations of doctors harvesting political 
or religious prisoners until 1997, the year of the ``Ghulja 
Incident.''
    My third witness, a nurse who worked in a Ghulja hospital 
in 1997, describes the hospital being turned upside down. 
Arrest of any doctor who dared to treat a Uighur protestor. The 
segregation of medical staff. Chinese doctors administering 
slow-acting lethal injections to any Uyghur baby who had the 
misfortune of being born a second child. Finally, she 
describes, 6 months after the Ghulja incident, the case of a 
21-year-old Uighur protestor harvested for his kidneys by a 
Chinese military hospital.
    This timing jibes with my fourth witness, a young doctor 
ordered to blood-test prisoners in the political wing of an 
Urumqi prison on behalf of six highly placed Party officials in 
search of healthy organs.
    The next eight witnesses, and I am going to skip their 
names for the brevity, come from different backgrounds, were 
held as prisoners in strikingly different facilities, yet they 
all had two things in common. They were all practitioners of 
Falun Gong, and they were all given strikingly similar medical 
exams. The doctor would draw a large volume of blood, then a 
chest x-ray, then a urine sample, probing of the abdomen, and 
in most cases, a close examination of the corneas. Did the 
doctor ask any of them to trace the movement of his light? Did 
he wiggle his fingers to check their peripheral vision? No. 
Only the corneas. Nothing involving brain function. The doctors 
were checking the retail organs and nothing else.
    Now I defy the Chinese authorities to furnish a plausible 
explanation for such tests, or why these tests were given to 
thousands of Falun Gong men and women, particularly women, 
often matched with an individual guard to prevent any 
disruption. Why were there special buses arranged to take Falun 
Gong practitioners away after extensive blood testing? Or why, 
as time progressed, ``Eastern Lightning'' Christians, or 
Tibetan activists were given the same exams? Now I can't supply 
a death count for those groups. But I estimate that 65,000 
Falun Gong were murdered for their organs from 2000 to 2008.
    Given my time limitations here, I request that you include 
my recent chapter in State Organs, which explicitly explains 
the methodology behind that number, along with two articles, 
``China's Gruesome Organ Harvest,'' and ``The Xinjiang 
Procedure,'' in the record of today's hearings. Anyone who 
reads this material will quickly grasp the obvious, the demand 
for the harvesting of political prisoners came not from triads, 
but aging Party cadres. China is a surveillance state. It is 
aimed at observing Party members and the military. Wang Lijun 
himself was given an award for medical innovation in organ 
harvesting, so ``Party Central'' knew about this. This was 
state-run, and any reader will quickly grasp why the Quit-the-
Party movement cannot be a Reform-the-Party movement.
    Ultimately, my writing and my testimony cannot do justice 
to these 12 witnesses, but I can report one thing with 
certainty. Every one of these witnesses that I mentioned has 
consented to testify openly before this committee. Now the fact 
is, these witnesses have begun to realize there is strength in 
the collective narrative and in transparency, particularly in 
the West, and particular if the U.S. Government facilitates 
this transparency. Sadly, little support has come forward in 
the 6 years since these first allegations have surfaced. Much 
more evidence has accumulated since that time but our 
Government has done little.
    So I believe a tragedy is being played out, even in this 
hearing today, for in the final analysis these witnesses are 
the men and women who should be sitting in this chair today, 
not me.
    [The prepared statement of Mr. Gutmann follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Rohrabacher. Thank you very much for that testimony.
    Dr. Lee, you may proceed.
    Dr. Lee. Can I testify after these two doctors on my left, 
please? Because I think that make more sense.
    Mr. Rohrabacher. That will be just fine. Thank you.
    Dr. Lee. Thank you.
    Mr. Rohrabacher. Doctor, would you like to proceed?

 STATEMENT OF GABRIEL DANOVITCH, M.D., PROFESSOR OF MEDICINE, 
                      UCLA MEDICAL SCHOOL

    Dr. Danovitch. Good afternoon, Honorable Chairman 
Rohrabacher, Mr. Smith, Ms. Bass, Members of Congress, 
congressional staff and guests. I am Gabriel Danovitch. I am a 
professor of medicine at UCLA. I am also the secretary of the 
international Transplantation Society (TTS), which is the NGO 
for the WHO for matters of transplantation.
    TTS and the International Society of Nephrology (ISN) are 
co-sponsors of the Declaration of Istanbul on organ trafficking 
and transplant tourism, a declaration that has been endorsed by 
over 100 governments and professional organizations around the 
world, and which works to support an end to the exploitation of 
vulnerable organ donors around the world and to put a stop to 
the use of organs of executed prisoners in China.
    Let me say categorically that the recovery of organs for 
transplantation from executed prisoners is regarded 
internationally as an unacceptable abrogation of human rights. 
The Chinese Ministry of Health has also said repeatedly that it 
is not consistent with international standards, yet it 
continues.
    There may be doubts about the number, but there can be no 
doubts about the Chinese own numbers that you can look up on 
the Chinese Ministry of Health own Web site, CLTR, the China 
Liver Transplant Registry, which as of August 2012, that is 
last month, gives over 21,000 executed prisoners for liver 
transplant. The numbers may be considerably more than that but 
they are unlikely to be less than the Chinese Government's own 
statistics. There was some dropoff in these numbers at the time 
of the Olympic Games in China in 2008, under the influence of 
Congress, but since that time those numbers seem to be 
increasing.
    The ease in which these organs can be obtained and the 
manner that they may be allocated to wealthy foreigners has 
engendered a culture of corruption which also affects living 
donation where vending is rampant. Despite Chinese laws, there 
are Chinese laws to this effect which are often flouted, and 
statements by the Ministry of Health admit that their own laws 
are flouted. These Chinese organ recovery practices have wide 
implications beyond China. China has become a hub for wealthy 
foreigners seeking quick access to organs, and in doing so this 
has undermined the development of organ recovery in other 
countries. I include Americans who travel to China and other 
countries to purchase organs in numbers that we do not know, 
and I will come back to that in a moment why that is an 
important job for this group.
    The medical outcome for recipients of these organs is often 
poor, both from executed prisoners and from vended donors. U.S. 
citizens returning from China and from other countries that 
have been involved in organ vending often do so with life-
threatening medical complications requiring prolonged hospital 
care, high mortality rate and significant public health risk. I 
have observed this personally in my own practice at the UCLA 
Ronald Reagan Medical Center and have published in this matter.
    On the positive side, attempts are being made by the 
Chinese Ministry of Health to develop alternative organ 
recovery practices that are consistent with international 
standards. The Transplantation Society, and the Declaration of 
Instanbul Custodian Group (DICS) is actively engaged in trying 
to support the activities. With respect to the United States, 
this country has recently improved its public transparency and 
accountability regarding non-residents coming to the United 
States for transplants. However, there is no transparency or 
reliable information on U.S. citizens that travel to China and 
elsewhere, despite the medical risk and public health 
implication and tremendous cost involved in that. We just do 
not know. There is no information on that.
    Organ vending does not only occur in China. The WHO has 
identified several hot spots in developing countries around the 
world. Organ vending in this country remains illegal according 
to NOTA, the National Organ Transplantation Act, yet it is not 
illegal for United States citizens to engage in vending abroad. 
The U.S. should take the lead in this regard in stopping its 
citizens from going abroad to break the laws in other 
countries. Other countries have passed such laws.
    The Transplantation Society, and the DICG has made and will 
continue to make efforts to deny academic recognition to those 
whose practice is contrary to its ethical standards. We also 
are attempting to influence the behavior of pharmaceutical 
companies.
    It is hard for us to control what goes on in China, but we 
do have some control about what goes on in this country and how 
we affect the behavior of Americans. It is not enough for us to 
express abhorence to this practice, Congress can tell Americans 
not to go to China or elsewhere to purchase organs from the 
living or the dead. We can do that. The U.S. should prohibit 
citizens from contravening organ transplant laws in other 
countries and should work to achieve international consensus. 
The National Organ Transplantation Act, NOTA, of which we are 
rightly proud in this country, should be given extra 
territorial jurisdiction.
    All U.S. residents returning to this country after 
receiving an organ transplant performed legally or illegally in 
another country should be required to declare this fact on 
their return. Such a policy would permit transparency and 
protect public health. U.S. visa DS-160 now is a small step in 
that direction. When you fill in your customs form when you 
come into the United States you say whether or not you have 
been on a farm or you are bringing in nuts, but you don't have 
to say whether or not you purchased an organ in another 
country.
    U.S. companies should be prohibited from undertaking organ 
transplant related clinical activities or benefiting from the 
sale of equipment or pharmaceuticals if the source of organs is 
executed prisoners or commercial organ donation. And we have 
tried to make some progress with pharmaceutical companies in 
that regard.
    Human trafficking for organ removal, which occurs not only 
in China but in other countries in the world, should be added 
to the Trafficking Victim Protections Act, TVPA. The U.S. Organ 
and Procurement and Transplantation Network, which is a branch 
of the DHHS around the corner from here, has accepted the 
definitions of the Declaration of Istanbul, and UNOS has 
accepted, which is the organization which governs 
transplantation in the United States, has accepted the 
principles of this declaration. Several governments now include 
the declaration in their transplant regulations. The U.S. 
Government and the State Department should promote the 
principles of the Declaration of Istanbul and the World Health 
Assembly whose Guiding Principles now cover these principles.
    Through its good offices in China and elsewhere, the U.S. 
Government and State Department should make it clear that the 
use of organs from executed prisoners and the buying and 
selling of organs from the living and the dead around the world 
is an unacceptable abrogation of human rights, and the U.S. 
should be prepared to offer the Chinese authorities assistance 
in the development of alternative, ethically acceptable organ 
retrieval practices. The U.S. professional transplant community 
is at the ready to help in that regard. Thank you.
    [The prepared statement of Dr. Danovitch follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Rohrabacher. Thank you very much.
    Dr. Noto?

   STATEMENT OF DAMON NOTO, M.D., SPOKESMAN, DOCTORS AGAINST 
                    FORCED ORGAN HARVESTING

    Dr. Noto. Thank you for allowing me to come to speak today 
on such an important topic. I am a spokesperson for an 
organization called, ``Doctors Against Forced Organ 
Harvesting,'' and my purpose here today is to try and convey to 
you the information we have learned over the past decade.
    Since the 1990s evidence has continued to mount which 
concern the medical community that Chinese transplant practices 
were just completely unethical. And this goes back to what he 
mentioned before, in 1998 when a prisoner guard testified here, 
and then in 2001, a Chinese medical doctor named Wang Guoqi 
fled to the United States, testified in front of Congress that 
China was organs from executed prisoners. This is something the 
Chinese Communist Party at the time completely denied.
    Many doctors then started becoming very alarmed at the 
rapid exponential increase in transplantations that were taking 
place in China since 1999, and then the number of transplant 
centers just took off. Chinese tranplant centers went from 150 
in 1999 to over 600 by early 2000. And according to the Chinese 
Vice Minister of Health, the number of transplants performed 
each year went from several hundred in 1999 to well over 10,000 
a year by 2008. And the China Daily Newspaper reported that the 
actual number in 2006 was 20,000. And now it is widely 
recognized that China performs the second most amount of 
transplantations only second to the United States.
    Even more troublesome was evidence that China seemed to 
have an overabundance of organs and that their medical tourism 
business was booming. They had hospitals advertising all over 
the internet that they could guarantee patients organs within 
the time frame of weeks, and they could even schedule them in 
advance. To put that in perspective, the United States waiting 
time for a kidney is over 3 years.
    It became apparent that China's organ harvesting was an 
extremely profitable business, with the Chinese medical centers 
often saying that their number one source of revenue was their 
transplant unit, and that on their Web sites they were saying 
they were charging $30,000 for a cornea, $60,000 for a kidney, 
$150,000 for a heart. Imagine what one person was worth, in the 
hundreds of thousands.
    Some people may think, ah, it makes sense. China is such a 
large country, so many people. But you really need to take a 
few factors into consideration. One, China does not have a 
formal public organ donation program, and two, they have no 
organized national distribution system. And even, even though 
they tried many times, the Beijing Red Cross themselves stated 
in 2011 that over the past 20 years only 37 people nationwide 
had registered to become an organ donor. Take that in 
comparison to the United Kingdom who has 18 million people as 
registered donors. Many people believe this is because the 
Chinese people believe, have a very strong spiritual belief 
that they need to be buried with their organs intact.
    So the question becomes, how does China become the number 
two transplant country in the world, and where are these organs 
coming from? Well, in 2005 the Vice Minister of Health of China 
admitted that over 95 percent of the organs transplanted come 
from executed prisoner. And then 2010, he stated again that 
between 1997 and 2008 China had performed more than 100,000 
transplantations, and over 90 percent of the organs came from 
executed prisoners. This is China saying that themselves.
    Although the Chinese Government admits the major source of 
organs is from executed prisoners, they don't actually give 
official numbers for either the amount of people they execute 
every year or the amount of people they transplant every year. 
If you look at many experts that try to estimate it, it is 
anywhere from about 2,000 to 8,000 executions a year takes 
place in China, which is more than all the world combined. But 
that still falls short of the 10,000 organs that they are 
saying they are transplanting every year. So the numbers that 
they are saying they are transplanting every year. So the 
numbers don't add up. Even if they executed 10,000 a year and 
transplanted 10,000 a year, there would still be a very large 
discrepancy. Why is that? It is simply impossible that those 
10,000 people executed would match perfectly the 10,000 people 
that needed the organs.
    You really have so many factors that go into play when you 
are transplanting somebody, and many times we will use the 
ratio of 10:1. It takes ten people to find a suitable donor for 
one person. So if we go by those numbers, they couldn't be just 
executing 10,000 people. Doing it the way they say they are 
doing, they would have to be executing around at least 100,000 
people.
    Then there is the factor of time, which needs to be really 
understood. Once you harvest someone's organs it is not that 
you can keep these organs around forever. There is a very short 
window of time. Take for example, a heart, which only has about 
8 hours once removed from the body. And you have the fact that 
China's own state laws says that prisoners once sentenced to 
execution have to be executed within 7 days. And this almost 
happens automatically. So we don't have the situation in China 
where we have all these people on death row. It is just not 
like that.
    So saying this, this means that the prisoners sentenced to 
death cannot fully account for all the transplantations that 
are taking place in China, especially when we talk about 
medical tourism patients. So how are they able to have this 
``on-demand'' transplant system that is capable of extremely 
short times? The only way they can be doing this is if they 
have another source of living donors that are available on 
demand. And I say living donors. And this is where, in some 
cases, the actual transplant operation itself becomes the 
method of execution.
    It has been through many different investigations that we 
now come to believe that it is prisoners of conscience, 
including Falun Gong practitioners, Tibetans, Uighurs, house 
Christians, who are being killed for their organs. And many of 
us now believe that the practioners of Falun Gong may be one of 
the worst victims because they comprise by many, or are 
believed by many to be the largest population of prisoners of 
conscience in China today.
    Also if you look at the timeline of the onset of China's 
boom in transplantations and the onset of the persecution of 
Falun Gong, it almost runs in complete parallel with both of 
them starting in 1999. Plus you have the fact that Falun Gong 
practitioners become particularly vulnerable because they often 
don't give their true identities while in prison to protect 
their family and loved ones. We also know that they are 
subjected to tests, like blood and urine tests, physical exams, 
ultrasound evaluations, multiple times while they are 
incarcerated.
    How can all this be possible? Well, China has a very unique 
situation where the military controls the prison systems, the 
forced labor camps and the majority of the hospitals performing 
these transplantations. Therefore they are able to do all the 
coordinating to make it possible and they have the ability to 
do it secretively.
    So where does this put us? Well, we have American doctors, 
we have American hospitals, we have American universities 
facing an extremely important dilemma, and we have a place 
where American doctors need to know what is going on. 
Currently, we have physicians, like Dr. Danovitch just said, 
have their patients going to China for organs. We have our own 
hospitals training these transplant surgeons from China. We 
have our universities participating in funding research in 
China on transplantation. We have our certain well-known 
pharmaceutical companies selling the transplant medications 
needed to do the transplants and even funding clinical trials 
in China to develop new ones.
    If we look at the numbers, every day there is a few dozen 
people being killed for their organs, and if we wait another 5 
years as the Chinese Medical Association has said it is going 
to take to stop this, there is a possibility of another 50,000 
innocent lives that will be taken.
    I stand before you today hoping that the U.S. Government 
will perform an official investigation into this matter and 
release all evidence it has about China's transplant practices. 
How can we expect our doctors and hospitals to make good 
decisions without all the information? In fact, our medical 
community have become accomplices to this horrible, terrific 
tragedy. I recommend also, Congress pass a resolution 
condemning China's forced organ harvesting from prisoners and 
prisoners of conscience. Thank you.
    [The prepared statement of Dr. Noto follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Rohrabacher. Thank you, Doctor.
    Dr. Lee?

STATEMENT OF CHARLES LEE, M.D., SPOKESMAN AND PUBLIC RELATIONS 
   DIRECTOR, GLOBAL SERVICE CENTER FOR QUITTING THE CHINESE 
                        COMMUNIST PARTY

    Dr. Lee. Thank you, Chairman and distinguished members of 
the committees for giving me the opportunity to testify today, 
and I also want to thank the gentlemen who were just speaking 
about the organ harvesting.
    I myself was in prison in China for 3 years, and I forcibly 
had blood samples taken without being told the reasons. If it 
were not for my U.S. citizenship and the international support 
of people like those in this room, I could have been the victim 
of the organ harvesting as well.
    But I want to touch some points regarding the Chinese 
Communist Party which may help us to understand better about 
this organ harvesting. The first thing is that the history of 
the killing by the CCP actually starting, the Communist 
Movement actually has caused 150 million people worldwide died, 
including 80 million people in China. There was one thing worth 
mentioning is that there was a big famine, manmade famine, 
during the year of 1959 to 1961, 40 million people starved to 
death in China. And what is more bizarre is that those starved 
people were not allowed to go out to beg. The armed forces 
locked them inside their villages.
    So most recently they started the persecuting of Falun Gong 
practitioners in 1999. We have 3,599 deaths were documented 
with names and addresses and how they were tortured. But as 
these gentlemen said, as many as 65,000 people were killed for 
the organs.
    Now such inconceivable deeds go beyond the routine 
suppression common to dictatorships, because the CCP is not a 
just average authoritarian regime. If you look at the history 
of the origin and their philosophy, and then we can find out 
that is very evident that the CCP is particularly malicious, 
inhumane and nefarious. In other words, it is evil. It has been 
like this since its very origin. Even though very few people in 
China right now believe in Communism, but their fundamental 
attributes like atheism and struggle continue to underpin the 
CCP's actions. And having destroyed traditional Chinese values 
like compassion, integrity and the respect for the divine that 
stabilized China for thousands of years, the CCP and its 
officials lack a moral baseline. Because of this absence of 
moral baseline, the Chinese officials, Communist officials, 
judges, and even doctors, they can participate or condone the 
heinous crimes like organ harvesting.
    Then the second point I want to mention is that there is a 
movement called, ``Quitting the Communist Party,'' also called 
a ``Tuidang'' in Chinese. There was a book called, ``Nine 
Commentaries on the Communist Party,`` was published at the end 
of 2004. This books describes the true nature of the Communist 
Party, and it has called the Chinese Communist Party, the evil 
specter. And also Karl Marx, actually, he himself referred to 
the communism as a specter in his Communist Manifesto. The book 
actually spread wide in China like wildfire, and it started, 
arguably, the world's largest grassroot human rights movement 
of, they started.
    The first Tuidang statement actually was received by the 
Epoch Times in December 2004, and the months next the paper 
published a Solemn Declaration urging whoever had joined the 
CCP or its affiliated organizations to quit immediately and 
erase the stains on the conscience left by the CCP specter, in 
order to definitely break from the Party and avoid suffering 
from future retributions upon the CCP's demise. And then there 
was a Web site put out just for that.
    With the help of Falun Gong practitioners inside China and 
abroad, this Tuidang movement has grown stronger and faster. 
Right now we have over 123 million people renounced the 
association with the Communist Party and affiliated 
organizations. Every day there are over 70,000 people doing 
this.
    The Falun Gong activists involved in Tuidang movement are 
seeking to promote the movement not to catalyze the regime 
change, but to offer Chinese citizens a chance to understand 
the CCP's history of violence, and take a principled stand by 
choosing to no longer associate with it. And in the actual 
spiritual movement, meaning is fundamental. When we review 
these freedom movement statements, it is very quickly evident 
that people overwhelmingly frame their decision to withdraw 
from the Party in moral and spiritual terms.
    The Tuidang movement is actually helping China to prepare 
for the post-CCP future. Right now, inside China they are like 
180,000 mass incidents every year. This is like saying like 500 
daily protests against the CCP's operation. And actually one 
paper published by the Minxin Pei, your Foreign Policy, he 
asked questions, are we obsessing about China's rise when we 
should be worried about its fall? So the Tuidang movement, it 
does not prescribe the specific institutional reforms for a 
post-CCP China, but it does provide a way out of the moral 
crisis. It offers hope for China as tens of millions of people 
not only reject the Party's culture of violence, lies and the 
struggles, but also embrace truth and integrity and free their 
conscience.
    So what should the U.S. Government do then? The simple 
answer is to stand together with the people of China rather 
than with the CCP regime.
    So I would like to stop here and just take more questions. 
Because there are a lot of things to cover if I had more time. 
Thank you very much again for giving me this opportunity. Thank 
you.
    [The prepared statement of Dr. Lee follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Rohrabacher. Thank you for that testimony, and thank 
all of the witnesses. I understand Mr. Smith has another 
commitment, so what we would like to do is, I am going to 
permit--why don't you go first and then I will ask the 
questions I had afterwards.
    Mr. Smith. Thank you, Mr. Chairman, I really do appreciate 
it. Just first of all, your testimonies are extraordinary, 
incisive, filled with information that is actionable, and I 
hope that the administration, as well as the Congress, does 
more.
    I think Dr. Danovitch, your suggestion that we amend the 
National Organ Transplant Act of 1984 is a good one. We are 
going to scope out doing a bill, I think. It is a great idea. 
Just like sex tourism is criminalized and you can't go anywhere 
in the world and think if you are in Brazil abusing a little 
child you evade U.S. law, the same ought to hold true here. And 
thank you for that very important recommendation.
    I guess just two basic questions. Mention was made about 
Manfred Nowak. I have read his report, the Special Rapporteur 
on Torture, and it was striking that he didn't get to talk to 
death row prisoners. I am wondering if he made any conclusions 
or has spoken out--he is not the Special Rapporteur on Torture 
anymore--about the organ issue? Did he understand, did any of 
the U.N. bodies, frankly, not just this specialist on torture, 
but the U.N. Human Rights Council, the Committee against 
Torture's, which has a panel of experts, has anybody weighed in 
and said, ``What you are doing to individuals through 
execution, especially the Falun Gong?'' It is barbaric and must 
stop.
    Yes, please, Dr. Noto?
    Dr. Noto. Yes, Manfred Nowak himself actually stood up in 
front of the United Nations and said he believed that Falun 
Gong practitioners were being executed for their organs, and he 
had said at that time he was hoping this practice would stop 
immediately. So he was actually a very big believer.
    Mr. Smith. Did the U.N. do anything in follow-up, and did 
the U.S. Government do anything in follow-up?
    Dr. Noto. As far as I know, no.
    Mr. Smith. You mentioned, Mr. Gutmann, that our Government 
has done little. What do you think the Obama administration 
should be doing?
    Mr. Gutmann. I think you need a dual track approach in 
this, in the sense that on one side you need to pressure 
corporations. We don't really have any laws forbidding 
companies from doing say what Roche is doing, the 
pharmaceutical company in Switzerland. They are doing a testing 
of transplant patients on the mainland, currently, clinical 
testing. And similarly, Isotechnika Pharma of Canada is also 
doing that, for profit, on the Chinese mainland. These are 
transplant patients who obviously could well be carrying Falun 
Gong organs, Uighur organs, and so forth. There is a problem 
there. TFP Ryder Healthcare of the U.K. is trying to build a 
medical center, including a transplant center, inside Dalian, 
which was the epicenter of Falun Gong organ harvesting 
according to every witness I spoke to.
    So I am not sure exactly what the mechanism that you would 
use for that to inhibit this kind of thing, but I think the 
Chinese listen to this kind of stuff very closely. The Chinese 
leadership cares about money. They care about investment very, 
very much.
    By doing this you would strengthen the reformers inside 
China. If Wen Jiabao indeed does have some sort of plan to come 
clean, about this you would at least, let us find out. Let us 
find out by putting him on the spot.
    But the second prong to that, the second part of the attack 
is to bring these witnesses forward. Because you, by putting 
these witnesses on this kind of stand and putting them through 
the kind of cross-examination that only Congress can do, we 
would also strengthen those reformers in China. We would 
prevent what exactly is happening now, which is this attempt to 
bury the whole issue, to say, okay, within 3 to 5 years this 
whole issue is going to be gone and we will never have to look 
at it again.
    Mr. Smith. But again I would note for the record that we 
did have a series of hearings in the '90s and beyond, and we 
never seem to get anywhere with the Chinese Government even 
acknowledging it. So some of the acknowledgements of recent 
vintage certainly shows that they are aware. And maybe they are 
so brazen and arrogant now, they feel they can say it and who 
cares.
    Let me ask you. Years ago I read a book about the Japanese 
Unit 731 operating in China which did horrific experimentation 
on a number of people, especially upon Chinese. I find it 
appalling that the Chinese Government could countenance this 
kind of torture when it sings out as it does and complains to 
this day about the abuses committed by the Japanese by way of 
torture, especially Unit 731.
    And if I could, finally, because I am running out of time, 
Dr. Danovitch, you mentioned that, I believe it was you, it has 
been well documented that medical outcomes for such transplants 
are poor. I wonder if you might tell us why. Because if you can 
dry up demand or, just by talking about how they don't do it 
state-of-the-art-wise they might come at it at a different 
level.
    Okay, Dr. Danovitch?
    Dr. Danovitch. Can I answer you?
    Mr. Smith. Yes, please.
    Dr. Danovitch. Yes, unethical medicine tends to be bad 
medicine. If you care only about the money and not about the 
outcome, medicine tends to be bad. So there are several reasons 
why. The most common reason are infectious complications, and 
in fact, the Chinese Ministry of Health has itself admitted 
that there are high incidences of infectious complications in 
people who undergo vended transplantation, around the world by 
the way, not just in China--that has been reported elsewhere--
and in transplants from executed prisoners. And I, in my own 
practice at UCLA, have seen people arrive at LAX with vicious 
infections and be admitted to the hospital sometimes for weeks 
and months.
    Also when livers are recovered from executed prisoners, for 
technical reasons I won't go into now, often complications 
occur 3 or 4 weeks later. That is when Americans go to China, 
get a liver from an executed prisoner and return, there are 
specific complications in the biliary tract that occur late 
because of the mechanism of recovery that then those patients 
end up spending months sometimes in U.S. hospitals suffering 
those complications. It is very dangerous.
    Mr. Rohrabacher. Thank you very much. And I guess I will 
proceed. We have been joined by Congressman Turner from New 
York, and if after my questions you have any questions to ask 
or an opening statement we will be happy to accommodate you at 
that time.
    Mr. Turner. Absolutely.
    Mr. Rohrabacher. Okay. Let me just ask some specific things 
just so I will get this on the record. We have a Radio Free 
Asia and Voice of America and other organizations that are 
supposed to be representing the values of the American people. 
Have they been playing a positive or negative role in this 
whole issue of forced organ harvesting? Have there been 
interviews of the Voice of America? Have any of you been 
interviewed with the Voice of America or Radio Free Asia, and 
what kind of role are they playing?
    No? Nobody has been interviewed?
    Mr. Gutmann. Can I take a shot at that?
    Mr. Rohrabacher. Please do.
    Mr. Gutmann. There is a long-standing taboo in the 
journalism community about Falun Gong, about this issue. To 
touch this issue is the Third Rail of journalism. If you touch 
it--if you are in Beijing, if you are based in China--you will 
not be given access to top leaders anymore. I can give you an 
example of this.
    I had a friend who wrote for the South China Morning Post. 
He wrote a very powerful article about Falun Gong back in the 
early days. The South China Morning Post was blocked, the web 
version was blocked in China for 6 months. That was at a time 
when the South China Morning Post was desperately trying to get 
penetration of that market. This is common. And so there are 
many dangers for doing this for journalists, and I believe 
those extend across the board.
    Mr. Rohrabacher. Not just journalists in general, I am 
talking about now, Radio Free Asia and Voice of America, is 
that included in, have any of you been interviewed on this 
issue on either one of these?
    Dr. Noto. I have never personally. I believe there was one 
Radio Free Asia interview, but I don't remember who was on. 
That was positive.
    Mr. Rohrabacher. So I know this never happens, but we have 
our journalists here. Is there a Radio Free Asia or Voice of 
America journalist with us today? Have you conducted any 
interviews on this issue before? All right. Well, we are going 
to put you under oath and get you right now.
    I think this is very significant. I mean this is tantamount 
to one of the most hienous and ghoulish crimes that has been 
going on on this planet for the last 20 years, and yet the 
outlets that are supposed to be representing American values 
haven't bothered to do a story on it. I think that this is very 
significant. And I think it maybe sends an unfortunate message 
to other journalists throughout the world, and perhaps it sends 
the message that maybe Americans don't care. Maybe this is just 
a small group of troublemakers who are trying to cause a 
problem on this issue. So no, none of you have been--I think I 
will send a letter to Voice of America and Radio Free Asia to 
find out why this hasn't been covered as it should.
    Now have the Governments of South Korea, Japan, Taiwan, 
these governments acknowledged China's forced organ harvesting 
program? What are the policies of those governments, or are 
they just looking the other way?
    Dr. Danovitch. I can't answer for those countries. I can 
say that Malaysia now, where 75 percent of Malaysians go to 
China to get organs, have now introduced rules to hopefully 
diminish that. The Israelis now have laws that don't permit 
their insurance companies to pay for transplantation if those 
transplants are illegal elsewhere. That is a rule that could 
well be adopted by other countries. I can't answer for Taiwan 
and the other Asian countries that you mentioned.
    Mr. Rohrabacher. In Japan, Korea?
    Dr. Danovitch. As far as I know, Japanese and Koreans still 
go to China for organs. I can't give you specific numbers.
    Mr. Rohrabacher. Dr. Noto?
    Dr. Noto. I can't speak for those countries, but I can 
speak for Australia who passed a law that stops the training of 
Chinese transplant surgeons in Australia. If they come to 
Australia they need to sign a contract that says they won't 
participate in forced organ harvesting. And from what I have 
heard from physicians there it has basically stopped Chinese 
doctors from coming to be trained in Australia.
    Mr. Rohrabacher. All of this reflects a dehumanization of 
values. I know there is some sort of an art exhibit, 
plasticization or something like that. Do we have any evidence 
that those, I mean they are apparently made out of real bodies. 
Is there any indication that these are the bodies of religious 
prisoners or political prisoners?
    Dr. Noto. I can speak to there is one association where the 
companies that were doing these plasticizations was in Liaoning 
province. I don't know if I am pronouncing that correct, but 
that is where Wang Lijun, the police officer who came to the 
U.S. Embassy for asylum, he had stated that he had done 
thousands of transplants, surgeries and experiments in that 
same province around the same time that this company you are 
mentioning with the plasticization took off. So we think that 
there is a possibility some of these bodies did wind up there.
    Mr. Rohrabacher. Again that is a reflection that such a 
monstrous thing can be looked at as art, and this just reflects 
a degeneration of values.
    The Chinese Vice Minister of Health said earlier this year 
that within 5 years that the PRC would stop organ harvesting of 
prisoners. I think it has been commented on a little bit here. 
Maybe we can come down just officially one by one. Do you take 
that seriously, and do you think that this will indeed be 
phased out? Just right down the line.
    Mr. Gutmann. The sequence of events here is very 
interesting. I mean Wang Lijun made his break for the Chengdu 
consulate. Shortly after that the words, ``live organ harvest'' 
were available on Baidu, the search engine. Okay, this is after 
some back and forth. This is in the middle of the crisis. They 
have never been allowed before. It was a brief period where you 
could search those terms in China. It was a kind of 
brinkmanship as we could see it. This is followed a few days 
later by the announcement, out of the blue, in a kind of case 
of ``mentionitis'' that they are going stop the organ 
harvesting of all criminals within 3 to 5 years. Not criminals 
of conscience, that is not mentioned of course. Nobody 
mentioned it. The Wall Street Journal didn't mention it. The 
Washington Post didn't mention it. Nobody brought up that 
issue. Again, the taboo held.
    But the point is, clearly if you look at that sequence of 
events coming in the middle of one of the worst leadership 
crises China has had in years, this is playing a major issue. 
Now for once, I don't always agree with Falun Gong analysts, 
but I have to here. This is clearly organ harvesting, and the 
organ harvesting of Falun Gong in particular is playing a major 
role as a political football in this Chinese leadership 
transition.
    Mr. Rohrabacher. So you are optimistic that this could be a 
signal that something real is going to happen?
    Mr. Gutmann. I am optimistic in that sense, but as much as 
I think a terribly heinous crime has been committed and may 
well still being committed, I don't think the leadership has 
shown any sign of reform whatsoever. I think they are preparing 
to bury this most recent mass murder just the same way that 
Tiananmen was buried, the same way the Cultural Revolution was 
buried and the same way the Great Leap Forward was buried.
    Mr. Rohrabacher. I see.
    Dr. Lee, are you optimistic that this Chinese Vice Minister 
of Health is speaking policy that will be actually implemented 
in the elimination of this heinous activity?
    Dr. Lee. Yes, I think in looking at the true nature of the 
CCP, I do not count on them at all. Because when this organ 
harvesting issue came out in 2006, and several months later 
China's health officials says that they took the organs from 
the executed prisoners, the reason is to cover up the actions 
on Falun Gong practitioners. So when things happen and then 
they took measures trying to cover up, but they have like 
signed agreements or make promise all these years, but a lot of 
times they just broke it.
    So if you look in the future, the only thing you can count 
is that the change within China that the regime has less and 
less control over the society. Things will change for the 
better, and hopefully that Chinese people were leaving the 
Communist Party. By that time we can be more optimistic of that 
the government promise something, we can count on that. Thank 
you.
    Mr. Rohrabacher. I didn't quite understand your answer.
    Dr. Lee. I am sorry. What I am saying is that we cannot 
count on them. They make promises but they don't keep it at 
all.
    Mr. Rohrabacher. Mr. Gutmann has some optimism. You have no 
optimism?
    Dr. Lee. No optimism on them, but on the future----
    Mr. Rohrabacher. Oh yes. Well, we can all be positive about 
the future. But I was thinking mainly the future based on the 
statement by the Chinese Vice Minister of Health.
    What about you?
    Dr. Danovitch. I will try and be a realist. I have actually 
personally heard the Chinese Vice Minister of Health, Jiefu 
Huang, in an international forum, admit that their behavior of 
the Chinese, the ongoing use of executed prisoners is an 
embarrassment to them. He admitted that in an international 
forum. That is quite something.
    I do believe that there are forces in China that generally 
want to see improvement. But I do also agree that they may not 
have full control, and there are also forces that enjoy the 
money chain and corruption that comes along with the ongoing 
abuse of executed prisoners and of vending. I think it is our 
job, since we can't control what goes on in China, what is our 
job in the United States is to do our best to make our absolute 
abhorence----
    Mr. Rohrabacher. You are giving me one of these ``on the 
other hand'' answers where they say, well, on the other hand 
this. If you had to come down are you an optimist of this?
    Dr. Danovitch. I am more optimistic now than I was several 
years ago.
    Mr. Rohrabacher. Good.
    Dr. Noto?
    Dr. Noto. I am not very optimistic. If history teaches us 
anything it told us twice before the Chinese Medical 
Association said they would stop. Both in 2001 and 2007 they 
said they would stop. Again this year they keep saying it is 
still happening. So if we go by their word I have very little 
faith, plus the Chinese Medical Association themselves has no 
power over the military, which we believe is playing a major 
role here. So they can say whatever they want, but if they 
can't get the military to take action it is not going to stop 
them.
    Mr. Rohrabacher. All right. And how many Falun Gong 
practitioners have had their organs harvested, and how many 
political prisoners, et cetera, and Tibetans? How many are we 
talking about? I heard the number 65,000 victims over a few 
year period. What are we talking about here?
    Mr. Gutmann. A number I come up with, and it is an estimate 
with a huge range possibility in there, it is based on a survey 
method at 65,000 over an 8-year period essentially.
    Mr. Rohrabacher. Okay.
    Dr. Lee, do you have another estimate?
    Dr. Danovitch?
    Dr. Danovitch. No, but I can just give you the Chinese 
Liver Transplant Registry. The Ministry of Health own registry 
gave a number of 21,000 liver transplants from executed 
prisoners up until August of this year. That is likely to be a 
minimal number but that is the thought.
    Mr. Rohrabacher. And we also heard that to get that number 
of organs transplanted you have to have 100,000, perhaps, 
operations to----
    Dr. Danovitch. I am not sure that is correct.
    Mr. Rohrabacher [continuing]. Achieve that. Well, yes.
    Dr. Noto, what do you estimate?
    Dr. Noto. After looking at everybody's different 
investigations I would put the number at least at 50,000.
    Mr. Rohrabacher. Okay. This is obviously what we are 
talking about is a monstrous crime. To tear open the body of 
someone who has been incarcerated for any reason is very 
questionable. I mean even if the person is a murderer, if 
someone has ripped open the body of someone else and killed 
them.
    But to rip open the body of someone who is simply involved 
in a religious or personal or political idea that is contrary 
to the wishes of the ruling elite, to rip a body open of 
someone like that especially if that person's religious or 
political beliefs are pacifistic and not a physical threat to 
the regime, this is about the most monstrous crime that I can 
conceive of. And yet the Voice of America and Radio Free Asia 
haven't done any stories about it, yet we have major 
journalists in this country and countries throughout the West 
who have not done stories about this. Shame on our journalist 
community. I am a former journalist. That is how I earned by 
living before I went into politics. Shame.
    There were many people who were being slaughtered during 
the second World War, not just the Jews by the Nazis but many 
different peoples, and that slaughter was quite often just 
ignored. And this is, the fact that we are having a hearing 
today is an attempt to try to encourage a look at this issue, 
and for the American people and other peoples to hear about 
this, so that perhaps with a loud voice we can say together 
that decent people do not put up with this type of activity in 
their country, nor should they allow their fellow countrymen to 
purchase the organs of people who are being subjected to this 
ghoulish, horrible, criminal behavior against them.
    I appreciated the exact, the specific suggestions that have 
been made here. We will study those suggestions.
    Mr. Turner, do you have a statement or a question you would 
like to ask?
    Mr. Turner. Thank you, Mr. Chairman. Just one question. Do 
we know the number of foreign nationals on an annual basis that 
travel to China as patients? Do we have an estimate perhaps?
    Dr. Danovitch. No, we don't. And that is an extraordinary 
fact. We do know about people coming into this country to get 
organs, but we don't know how many people go outside. I don't 
think the numbers are very large, but we don't know those 
numbers and we certainly should. Not just from the ethical 
point of view, from the medical, public health and cost point 
of view. No, we don't. There is no documentation. You can get 
the data in a kind of background way by looking about people 
who are in Medicare and whether they get medications 
afterwards, but it is very, very indirect. We have no precise 
numbers.
    Mr. Turner. And do we know if any of this is done on 
demand? That is, someone on the internet contacts the Chinese, 
I need a liver, 2 weeks, and say well, it might take us three 
but we will find one.
    Dr. Danovitch. Well, I had a specific patient of mine who 
went to China, despite my request that she not do so, and 
basically got a kidney more or less on demand. I have a 
colleague in Israel who had a patient had a heart transplant at 
a given date, which someone must have been executed for that 
very purpose, and it is well known that that happens. There are 
proliferation of internet sites that are looking for foreigners 
to come to China to get organs from executed prisoners contrary 
to Chinese law. The Chinese do have laws, but those laws are 
often flouted and ignored.
    Mr. Turner. And are these operations all run by military 
units?
    Dr. Danovitch. Not necessarily. Some are by military units 
and some are in----
    Mr. Turner. Political?
    Dr. Danovitch [continuing]. So-called academic centers.
    Mr. Turner. Yes, sir?
    Mr. Gutmann. Can I just mention something? There is a 
doctor, a surgeon in Taiwan who I spoke to in a reasonably 
confidential manner who initially was very standoffish, but 
then he revealed to me that he had been taking his patients 
over to the mainland for a long time to receive organs, to get 
new kidneys and livers and so on, aging patients. And he had 
negotiated for the Chinese price, not to pay the foreigner 
price, pay the Chinese price. And so he had gotten to know 
these doctors very well in the karaoke bars and all the stuff 
that you do when you negotiate in China. At the end of this 
negotiation period they said, hey, you know what. We are not 
only going to give you the Chinese price but you are getting 
the best of the best. You are getting all Falun Gong organs.
    Now this is a top surgeon in Taiwan. He is an incredibly 
credible witness. If your committee were to call him it is 
possible that he would testify to this, and I think he could 
explain a lot about this business. He was basically doing it 
right up until the Olympics, so we would have some fairly, 
reasonably current information on this. And I think he is quite 
credible.
    Mr. Turner. Thank you.
    Mr. Rohrabacher. All right, we are going to adjourn in a 
moment. And let me just note that organ transplanting in and of 
itself is not evil. Organ transplanting in and of itself, I 
certainly think that we should encourage people in this country 
to participate in organ donating if they are in a car accident 
or something like that, that is something that is laudatory and 
speaks well of people who are involved in organ transplanting 
in that way.
    But what we have focused on today is an evil manifestation 
of something that is good that has been perverted into being 
something that is probably one of the most evil activities on 
this planet today. And that is taking people who are being 
incarcerated for their political beliefs or their religious 
beliefs, people who are in no way engaged in a violent activity 
against any other human being, and murdering them in the 
process of stealing their body organs. This is a crime against 
humanity. We should do our best to identify those specific 
individuals who are engaged in this and put them on the list of 
people to observe to be brought to justice. And specifically, 
that does not exclude Americans who are willing accomplices to 
this crime against humanity.
    We will have further discussions on this as time goes on, 
and hopefully next year we will be able, in the next session, 
be able to have a hearing, and call to task some of the 
Americans who are engaged in this activity at least as 
accomplices to this crime.
    I want to thank each of our witnesses for coming today. 
Thank you, Mr. Turner. This hearing is now adjourned.
    [Whereupon, at 4:38 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



               <F-dash>\\<careof><Rx><brit-pound>t<box>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


              <F-dash>\<Hoarfrost><acctof><careof>t<star> 
                     <F-dash><func.-of><Register>\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                <F-dash>

[Note: The survey-based estimate of Falun Gong Murdered from 
2000 to 2008, ``How Many Harvested?'' by Mr. Ethan Gutmann, 
submitted for the record by the Honorable Christopher H. Smith, 
is not repinted here due to length limitations but is available 
in committee records.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
